Q@OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 19-23

ROCK WOOD CASUALTY INSURANCE CO.,
Insurer of Hidden Splendor Resources, Inc.,
Petitioner,
Vv.
TONY N. KOURIANOS and Director,
Office of Workers’ Compensation Programs,
United States Department of Labor,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 7874 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE .
General Notary .
State of Nebraska : LG ,

Notary Public Affiant 38342

My Commission Expires Nov 24, 2020

 
